DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                              Region IX
                                                                              Office of Audit Services
                                                                              90 - yth Street, Suite 3-650

  AP~ 15 2009                                                                 San Francisco, CA 94103




Report Number: A-09-09-00037

Mark B. Horton, M.D., M.S.P.H.
Director
California Department of Public Health
1615 Capitol Avenue, MS 0500
Sacramento, California 95899-7377

Dear Dr. Horton:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of the California Department of Public Health's
Compliance With the Ryan White CARE Act Payer-of-Last-Resort Requirement." We will
forward a copy of this report to the HHS action official noted below.

Pursuant to the Freedom ofInfonnation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that infonnation in the report is not subject to exemptions
in the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS
action official. Please refer to report number A-09-09-00037 in all correspondence.

                                              Sincerely,



                                              Lori A. Ahlstrand
                                              Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Team Leader, Compliance Team, OFAM/DFI
Health Resources and Services Administration
Parklawn Building, Room 11A-55
5600 Fishers Lane
Rockville, Maryland 20857
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





  REVIEW OF THE CALIFORNIA

    DEPARTMENT OF PUBLIC

  HEALTH'S COMPLIANCE WITH

  THE RYAN WHITE CARE ACT

    PAYER-OF-LAST-RESORT

        REQUIREMENT





                    Daniel R. Levinson

                     Inspector General


                       April2009

                      A-09-09-00037

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofA udit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990, Public
Law 101-381, funds health care and support services for people who have HIVI AIDS and who
have no health insurance or are underinsured. As the Federal Government's largest source of
funding specifically for people with HIV/AIDS, the CARE Act assists more than 500,000
individuals each year. Within the U.S. Department of Health and Human Services, the Health
Resources and Services Administration administers the CARE Act.

Title II of the CARE Act, sections 2611-2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through AIDS Drug Assistance
Programs and other health care and support services. Pursuant to 42 U.S.C. § 300ff-27(b)(6)(F),
these grant funds may not be used to pay for items or services that are eligible for coverage by
other Federal, State, or private health insurance. This provision is commonly referred to as the
"payer oflast resort" requirement.

During our audit period (April!, 2003, through June 30, 2006), the California Department of
Public Health (the Department) claimed Title II drug expenditures totaling $305,356,447.

OBJECTIVE

Our objective was to determine whether the Department complied with the Title II payer-of-1ast­
resort requirement that funds not be used to pay for drugs that are eligible for coverage by other
Federal, State, or private health insurance.

SUMMARY OF RESULTS

Based on our limited review, the Department complied with the Title II payer-of-1ast-resort
requirement that funds not be used to pay for drugs that are eligible for coverage by other
Federal, State, or private health insurance. Ofthe 100 prescriptions we sampled, all were
correctly claimed under the Title II program for clients without other health care coverage for
HIV/AIDS drugs. Consequently, our report contains no recommendations.
                           TABLE OF CONTENTS




INTRODUCTION                                    1


    BACKGROUND                                  1

        Title II Grant Funds                    1

        Payer-of-Last-Resort Requirement        1


    OBJECTIVE, SCOPE, AND METHODOLOGY           2

         Objective                              2

         Scope                                  2

         Methodology                            2


RESULTS OF REVIEW                               3





                                      11
                                               INTRODUCTION


BACKGROUND


The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990, Public
Law 101-381, funds health care and support services for people who have HIV/AIDS and who
have no health insurance or are underinsured. As the Federal Government's largest source of
funding specifically for people with HIV/AIDS, the CARE Act assists more than 500,000
individuals each year. Within the U.S. Department of Health and Human Services, the Health
Resources and Services Administration (HRSA) administers the CARE Act.

Title II Grant Funds

Title II ofthe CARE Act, sections 2611-2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through AIDS Drug Assistance
Programs (ADAP) and other HIV/AIDS health and support services, such as outpatient care,
home and hospice care, and case management.

In California, the Department of Public Health (the Department), Office of AIDS, administers
the Title II program. l The majority of California's Title II program funds are designated for
drugs to treat HIV/AIDS through the ADAP. For example, ADAP drug expenditures in each of
the three grant years accounted for about 55 percent of Title II expenditures.

Payer-of-Last-Resort Requirement

Title II of the CARE Act stipulates that grant funds not be used to pay for items or services that are
eligible for coverage by other Federal, State, or private health insurance. This provision is
commonly referred to as the "payer oflast resort" requirement. Specifically, section 2617(b)(6)(F)
ofthe Public Health Service Act (42 U.S.C. § 300ff-27(b)(6)(F)) states:

         [T]he State will ensure that grant funds are not utilized to make payments for any
         item or service to the extent that payment has been made, or can reasonably be
         expected to be made, with respect to that item or service
                 (i)	 under any State compensation program, under an insurance policy, or
                      under any Federal or State health benefits program; or
                 (ii) by an entity that provides health services on a prepaid basis?


lIn California, administration of ADAP is contracted to the pharmacy benefits manager (PBM). The PBM
subcontracts with over 200 enrollment sites, which handle "intake" activities, such as processing initial applications
and renewals and verifying eligibility. As part of this process, enrollment-site workers are required to screen all
clients for current or potential Medicaid eligibility and document the status in the clients' files.

2 Subsequent  to our audit period, the Ryan White HIY/AIDS Treatment Modernization Act of2006, §§ 204(c)(1)(A)
and (c)(3), P.L. No. 109-415 (December 19,2006), redesignated this provision as section 2617(b)(7)(F) (42 U.S.C.
§ 300ff-27(b)(7)(F)) and amended subparagraph (ii) to prohibit the State from using these grant funds for any item
or service that should be paid for "by an entity that provides health services on a prepaid basis (except for a program
administered by or providing the services of the Indian Health Service)."



                                                           1

In addition, HRSA Program Policy No. 97-02, issued February 1, 1997, and reissued as DSS 3
Program Policy Guidance No.2 on June 1,2000, reiterates the statutory requirement that "funds
received ... will not be utilized to make payments for any item or service to the extent that
payment has been made, or can reasonably be expected to be made ..." by sources other than
Title II funds. The guidance then provides: "At the individual client level, this means that
grantees and/or their subcontractors are expected to make reasonable efforts to secure other
funding instead of CARE Act funds whenever possible."

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Department complied with the Title II payer-of-last­
resort requirement that funds not be used to pay for drugs that are eligible for coverage by other
Federal, State, or private health insurance.

Scope

Our review covered the period April 1, 2003, through June 30, 2006. 4 On its financial status
reports for that period, the Department claimed ADAP expenditures totaling $305,356,447 for
HIV/AIDS drugs dispensed at over 3,400 pharmacies.

We did not assess the Department's overall internal controls for administering Title II funds.
Rather, we limited our review to gaining an understanding of those significant controls related to
the claiming ofHIV/AIDS drug costs. Because of concerns regarding the protection of program
clients' personally identifiable identification, we did not contact private health insurance
companies to confirm health insurance coverage.

We conducted our fieldwork at the Office of AIDS in Sacramento, the office of the PBM in
Oakland, and 47 different enrollment sites throughout California.

Methodology

To accomplish our objective, we:

           •	 reviewed applicable Federal laws, regulations, and guidance, as well as State
              guidance;




3   DSS is the Division of Service Systems, a component ofHRSA's HIV/AIDS Bureau.

4Although   the HRSA grant year is April 1 through March 31, the Department reported prescription costs on the
financial status report based on the State's fiscal year, July 1 through June 30. For grant year 2005, the Department
included costs from April, May, and June 2006. Therefore, the Department included prescriptions for the 39-month
period April 1, 2003, through June 30, 2006.


                                                          2
       •	 reviewed documentation provided by the Department for the period April 1, 2003,
          through June 30, 2006, including Title II grant applications, notices of grant award,
          financial status reports and supporting accounting records, and the ADAP drug
          formulary (a list of drugs authorized for purchase by the program);

       •	 held discussions with Department officials to identify policies, procedures, and
          guidance for billing HIVIAIDS drugs to other Federal or State programs and private
          insurance plans;

       •	 analyzed the Department's procedures for accounting for and dispensing drugs to
          Title II clients;

       •	 identified a sampling frame of 1,253,939 HIV/AIDS prescriptions of$100 or more
          that were included in claims during the audit period;

       •	 selected a simple random sample of 100 prescriptions from the sampling frame; and

       •	 visited 47 enrollment sites to review eligibility and enrollment information for the
          clients who received the 100 HIV/AIDS drug prescriptions selected for review.

We conducted this performance audit in accordance with generally accepted governrnent
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF REVIEW

Based on our limited review, the Department complied with the Title II payer-of-last-resort
requirement that funds not be used to pay for drugs that are eligible for coverage by other
Federal, State, or private health insurance. Ofthe 100 prescriptions we sampled, all were
correctly claimed under the Title II program for clients without other health care coverage for
HIV/AIDS drugs. Consequently, our report contains no recommendations.




                                                3

